y

A

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen
United States Courthouse
Room 2722 - 219 S, Dearborn Street
Chicago, filinois 60604

Office of the Clerk
Hione: (312) 435-5850
www.caXuscourts.gov

PLRA C.R. 3(b) FINAL ORDER
July 21, 2021
MEGAN KYTE,
Plaintiff - Appellant
No. 21-1754

v.
MARION COUNTY POLICE,
Defendant - Appellee

Originating Case Information:
District Court No: l:19-cv-0279Q-RL¥-MJD
Southern District of Indiana, Indianapolis-Division
District Judge Richard L. Young
On June 25, 2021, this court issued an order directing the appellant to show cause as to why this
appeal should not be dismissed for failure submit the PLRA Memorandum. As of this date, the
appellant has neither filed the correct documents nor filed a response explaining their inability
to do so. Accordingly,
IT IS ORDERED that this appeal is DISMISSED for failure to pay the required docketing fee
pursuant to Circuit Rule 3(b).
IT IS FURTHER ORDERED that the appellant pay the appellate fee of $505.00 to the clerk of
the district court. The clerk of the district court shall collect the appellate fees from the
prisoner's trust fund account using the mechanism of Section 1915(b). Newlin v. Helman, 123 F.3d
429,433 (7th Cir. 1977).

form name: c7_PLRA_RSC_CR3b_Final

(form ID: 154)

(1 of 2)

(0
x

*v

■i

i<P
CL

<

s
OFFICE OF THE CLERK

S SUBURBAN IL 604

Quitch States fflourf of <&ppeals
^nr tl|E j®Eii£ttflj (Etrnrif

%

28 JUL 2.021 PM
■»V*j

219 S. DEARBORN STREET
CHICAGO, ILLINOIS 60604-1874

m

; Ja
OFFICIAL BUSINESS

X

^ J1 o

*■

V

00215-170435

f«£

PITNEY BOWES

$000.51°

02 1P
0000886189
JUL 26 2021
MAILED FROM ZIP CODE 60604

Case l:19-cv-02790-RLY-MJD Document 22 Filed 03/17/21 Page 1 of 2 PagelD #: 87

UNITED STATES DISTRICT COURT
INDIANAPOLIS DIVISION
MEGAN KYTE,
Plaintiff,

)
)
)
)
)
)

v.

MARION COUNTY POLICE, Indianapolis,
Indiana,
Defendant.

No. 1:19-CV-02790-RLY-MJD

)
)
)
)

ORDER DISMISSING COMPLAINTS AND CLOSING CASE
On February 10, 2021, the court screened Megan Kyte's second amended
complaint and dismissed it for failure to state a claim. (Filing No. 16). The court granted
her leave to file a third amended complaint. (Id.). The court also ordered her to either
report her current address or explain the steps she would take to monitor the docket
moving forward. (Id.). The court acknowledged Kyte's difficult situation (she is
experiencing homelessness) but also explained the importance of being able to transmit
its orders. (Id.).
Kyte responded with two more amended complaints. (Filing Nos. 17 and 21).
She did not respond to the court's order with respect to her address or the steps she would
take to monitor the docket.
The court now dismisses her amended complaints and closes this case. The
amended complaints repeat the same allegations as the previous complaints, and so they
fail to state a claim for the reasons already expressed. (See Filing No. 16). And Kyte

Case l:19-cv-02790-RLY-MJD Document 22 Filed 03/17/21 Page 2 of 2 PagelD #: 88

failed to respond to the court's order that she either provide her address or discuss the
steps she would take moving forward.
Accordingly, Kyte's Amended Complaints (Filing Nos. 17 and 21) are now
DISMISSED WITH PREJUDICE for failure to state a claim and failure to follow court
orders. Kyte's Motion for Leave to Proceed in forma pauperis (Filing No. 19) is
DENIED as MOOT. The clerk is DIRECTED TO close this case. Kyte has thirty days
from the date of this order to appeal this case to the Seventh Circuit Court of Appeals in
Chicago, Illinois.
SO ORDERED this 17th day of March 2021.

RICHARDX. YOUNG, JUDGE
United Stated-District Court
Southern District of Indiana
Mail to:
MEGAN KYTE
mkyte@gmail. com

